JACKMAN & ROTH LLP
7-2 Overbrook Hamlet Way, P.O. Box 1377
Lincoln, New Hampshire 03251
Norman Jackman (Admitted in MA & NH)
njackman@post.harvard.edu
Norma Roth (Admitted in MA)
November 22, 2019
United States Supreme Court
1 First Street NE
Washington, DC 20543

Telephone:(617) 682-8049

Re: Petition for Certiorari, John B. Lepore
U.S.C.A. Federal Circuit Case Number 18-1474
Decided February 6, 2019
Dear Sir/Madam:
Enclosed for filing in the above referenced case please find:
40 copies of the Petition for Certiorari of John B. Lepore, together with
40 copies of the Appendix thereto, each taped and with 2 hard copies on ordinary paper
a Certificate of Compliance with the word count, being 904 words for the entire Petition,
a Certificate of Service of 3 copies of the Petition and 3 copies of the Appendix on:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
A Certificate of Service of 3 copies of the Petition and 3 copies of the Appendix on:
Rebecca Sarah Kruser
Commercial Litigation Branch
Civil Division
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

CERTIFICATE OF COMPLIANCE
I, Norman Jackman, attorney for Petitioner, hereby certify that the Petition for Certiorari of
John B. Lepore contains 904 words as shown in the word count of Microsoft Word.
/s/ Norman Jackman

CERTIFICATE OF SERVICE
I, Norman Jackman, attorney for John B. Lepore, hereby certify that I served 3 copies of the
Petition and 3 copies of the Appendix via first class mail, postage prepaid, this 22nd day of
November, 2019 on:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

I, Norman Jackman, attorney for John B. Lepore, hereby certify that I served 3 copies of the
Petition and 3 copies of the Appendix via first class mail, postage prepaid, this 22nd day of
November, 2019 on:

Rebecca Sarah Kruser, Representative of OPM
Commercial Litigation Branch
Civil Division
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

Sincerely,
JACKMAN & ROTH LLP

Norman Jackman

